                                      A MESSAGE FROM THE
                                       INSPECTOR GENERAL
I am pleased to present this Semiannual Report to Congress on the activi-
ties and accomplishments of the Nuclear Regulatory Commission (NRC)
Office of the Inspector General (OIG) from April 1, 2007 to September 30,
2007. Our work reflects the legislative mandate of the Inspector General
Act to identify fraud, waste, and abuse and to recommend appropriate
corrective actions. The audits and investigations highlighted in this re-
port demonstrate our commitment to ensuring integrity and efficiency in
NRC’s programs and operations, and enhancing public confidence in its
regulatory process.

During this semiannual reporting period, we issued 8 program audit reports
and 4 contract audit reports. As a result of this work, OIG made numer-
ous recommendations to improve the effective and efficient operation of NRC’s safety, security, and
corporate management programs, and questioned $68,018 in contract costs. OIG also opened 23
investigations, and completed 21 cases. Twelve cases were referred to the Department of Justice,
and 27 allegations were referred to NRC management for action.

Looking towards the future, OIG has engaged in an update of its strategic plan based in part on
an assessment of the strategic challenges facing the NRC. We seek to add value to NRC technical
and administrative programs by aligning our strategic direction with NRC’s mission and strategic
goals.

My office is dedicated to maintaining the highest possible standards of professionalism and quality
in its audits and investigations. I want to recognize the exemplary work of the auditors, investiga-
tors, and support staff who form the core of the NRC OIG and are committed to promoting integrity
and efficiency within the NRC and its programs.

Finally, the success of the NRC OIG would not be possible without the collaborative work be-
tween my staff and agency managers to address OIG findings and implement the recommenda-
tions made by my office. I wish to thank them for their dedication and support and look forward
to their continued cooperation as we work together to ensure the integrity of agency operations.




Hubert T. Bell
Inspector General


                                                                                                   
                                                                    April 1, 2007 – September 30, 2007
ii
NRC OIG Semiannual Report
                                                                                                CONTENTS
Highlights ...................................................................................................................v
OIG Organization and Activities . ..........................................................................1
	     NRC’s Mission .....................................................................................................1
	     OIG Mission and Strategies ...............................................................................2
		          Inspector General History ...........................................................................2
		          OIG Mission ..................................................................................................3
		          Audit Program ...............................................................................................3
		          Investigative Program ...................................................................................5
	     OIG General Counsel Activities . ......................................................................6
		          Regulatory Review ........................................................................................6
Audits .........................................................................................................................8
	     Audit Summaries . ...............................................................................................8
	     Audits In Progress .............................................................................................18
Investigations ...........................................................................................................24
	     Investigative Case Summaries .........................................................................24
Statistical Summary of OIG Accomplishments .................................................30
	     Investigative Statistics .......................................................................................30
	     Audit Listings . ...................................................................................................32
	     Audit Resolution Activities ..............................................................................34
Abbreviations and Acronyms . ..............................................................................39
Reporting Requirements ........................................................................................41




                                                                                                                                    iii
                                                                                              April 1, 2007 – September 30, 2007
iv
NRC OIG Semiannual Report
                                                                  HIGHLIGHTS
The following two sections highlight selected audits and investigations completed
during this reporting period. More detailed summaries appear in subsequent
sections of this report.

AUDITS
•	 NRC regulations limit the term of an initial nuclear reactor operating license
   to 40 years. However, the regulations also allow a license to be renewed for
   an additional 20 years given that the initial term was based on economic
   and anti-trust considerations, not technical limitations. Through technical
   research, NRC concluded that many aging phenomena are readily managed
   and therefore should not preclude renewal of a reactor license. The objec-
   tive of this audit was to determine the effectiveness of NRC’s license renewal
   safety reviews.

•	 NRC buildings contain many security features and the agency has increasingly
   hardened its protection against access to its headquarters (HQ). The U.S.
   Department of Justice recommended minimum physical security standards
   for Federal buildings, which include the NRC. The objective of this audit was
   to assess the adequacy of physical security measures at NRC HQ and other
   buildings for three main areas: physical security, emergency preparedness,
   and written procedures.

•	 The Federal Information Security Management Act outlines the information
   security management requirements for agencies, including the requirement
   for an annual review and annual independent assessment by agency Inspec-
   tors General. The annual assessments provide agencies with the information
   needed to determine the effectiveness of overall security programs and to
   develop strategies and best practices for improving information security.

•	 The NRC has an established property management program to account for
   and control property. Property management encompasses both capitalized
   and non-capitalized property. This report focused on NRC’s program to
   account for and control non-capitalized property.




                                                                                                  
                                                                    April 1, 2007 – September 30, 2007
                   INVESTIGATIONS
                   •	 OIG conducted an investigation into a concern by the Union of Concerned
                      Scientists that the NRC had failed to adequately review security-related
                      concerns and other issues raised by The Wackenhut Corporation guards at
                      the South Texas Project nuclear power plant.

                   •	 OIG investigated an allegation that Entergy Nuclear Operations, Inc., and
                      NRC conspired to avoid complying with a Congressional mandate regarding
                      backup power to the emergency notification system at Indian Point Nuclear
                      Power Plant.

                   •	 OIG completed an investigation into concerns involving degraded paint coat-
                      ings inside reactor containment walls at the Onconee Nuclear Station Units
                      1, 2, and 3.

                   •	 OIG completed an investigation into an improper release by the NRC staff
                      of Personally Identifiable Information contained in criminal history reports
                      pertaining to NRC licensee employees.

                   •	 OIG completed an investigation into an allegation that NRC issued five reactor
                      operator licenses to San Onofre Nuclear Generating Station employees who
                      were tested on a simulator that did not meet NRC standards.




vi
NRC OIG Semiannual Report
   OIG ORGANIZATION AND ACTIVITIES
NRC’S MISSION
The U.S. Nuclear Regulatory Commission (NRC) was formed in 1975 to regulate
the various commercial and institutional uses of nuclear materials as authorized
by the Energy Reorganization Act of 1974. The agency succeeded the Atomic
Energy Commission, which previously had responsibility for both developing
and regulating nuclear activities.

NRC’s mission is to regulate the Nation’s civilian use of byproduct, source, and
special nuclear materials to ensure adequate protection of public health and safety,
promote the common defense and security, and protect the environment. NRC’s
regulatory mission covers three main areas:

•	 Reactors - Commercial reactors for generating elec-
   tric power and research and test reactors used for
   research, testing, and training.

•	 Materials - Uses of nuclear materials in medical,
   industrial, and academic settings and facilities that
   produce nuclear fuel.

•	 Waste - Transportation, storage, and disposal of
   nuclear materials and waste, and decommissioning
   of nuclear facilities from service.

Under its responsibility to protect public health and safety,
NRC has three principal regulatory functions: (1) es-
tablish standards and regulations, (2) issue licenses for
nuclear facilities and users of nuclear materials, and (3)
inspect facilities and users of nuclear materials to ensure
compliance with the requirements. These regulatory
functions relate to both nuclear power plants and other
uses of nuclear materials – like nuclear medicine programs at hospitals, academic
activities at educational institutions, research work, and such industrial applica-
tions as gauges and testing equipment.



                                                                                                    
                                                                       April 1, 2007 – September 30, 2007
                   The agency maintains a current Web site and a public document room in Rockville,
                   Maryland (NRC Headquarters) and holds public hearings, public meetings in local
                   areas and at NRC offices, and discussions with individuals and organizations.

                   OIG MISSION AND STRATEGIES
                   Inspector General History

                   In the 1970s, Government scandals, oil shortages and stories of corruption covered
                   by newspapers, television, and radio stations took a toll on the American public’s
                   faith in its Government. The U.S. Congress knew it had to take action to restore
                   the public’s trust. It had to increase oversight of Federal programs and opera-
                   tions. It had to create a mechanism to evaluate the effectiveness of Government
                   programs, and to provide an independent voice for economy, efficiency, and
                   effectiveness within the Federal Government that would earn and maintain
                   the trust of the American people.

                   In response, President Jimmy Carter in 1978 signed into law the landmark
                   legislation known as the Inspector General Act (IG Act). The IG Act created inde-
                   pendent Inspectors General (IGs), who would: protect the integrity of Government;
                   improve program efficiency and effectiveness; prevent and detect fraud, waste and
                   abuse in Federal agencies; and keep agency heads, Congress, and the American
                   people fully and currently informed of the findings of the IGs’ work.

                   Almost 30 years later, the IG concept is a proven success. The IGs continue to
                   deliver significant benefits to our Nation. Billions of dollars have been returned
                   to the Federal Government or have been better spent based on recommendations
                   identified through IG audits and inspections. Investigations have also contrib-
                   uted to the prosecution of thousands of wrongdoers and resulted in monetary
                   recoveries. In addition, the IG concept of good governance, accountability and
                   monetary recoveries encourages foreign governments to seek our advice, with
                   the goal of replicating the basic IG principles in their own governments.





NRC OIG Semiannual Report
OIG Mission

NRC’s OIG was established as a statutory entity on April 15, 1989, in accordance
with the 1988 amendment to the IG Act. NRC OIG’s mission is to (1) indepen-
dently and objectively conduct and supervise audits and investigations relating
to NRC programs and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC programs and
operations.

OIG is committed to ensuring the integrity of NRC programs and operations. The
development of an effective planning strategy is a critical aspect of accomplishing
this commitment. Such planning ensures that audit and investigative resources
are used effectively. To that end, OIG developed a Strategic Plan that includes
the major challenges and critical risk areas facing NRC.

The plan identifies the priorities of OIG and establishes a shared set of expecta-
tions regarding the goals OIG expects to achieve and the strategies that will be
employed to do so. OIG’s Strategic Plan features three goals which generally align
with NRC’s mission and goals:

1.	 Advance NRC’s efforts to enhance safety and protect the environment.

2.	 Enhance NRC’s efforts to increase security in response to the current threat
    environment.

3.	 Improve the economy, efficiency, and effectiveness of NRC corporate
    management.

Audit Program

The OIG Audit Program covers the management and financial operations,
economy or efficiency with which an organization, program, or function is
managed; and program results achieved. Auditors assess the degree to which
an organization complies with laws, regulations, and the internal policies in
carrying out programs. They test program effectiveness as well as the accuracy and




                                                                                                   
                                                                      April 1, 2007 – September 30, 2007
                   reliability of financial statements. The overall objective of an audit is to identify
                   ways to enhance agency operations and promote greater economy and efficiency.
                   Audits comprise four phases:

                   •	 Survey phase - An initial phase of the audit process is usually to gather infor-
                      mation, without detailed verification, on the agency’s organization, programs,
                      activities, and functions. An assessment of vulnerable areas determines whether
                      further review is needed.

                   •	 Verification phase - Detailed information is obtained to verify findings and
                      support conclusions and recommendations.

                   •	 Reporting phase - The auditors present the information, findings, conclusions,
                      and recommendations that are supported by the evidence gathered during the
                      survey and verification phases. Exit conferences are held with management
                      officials to obtain their views on the issues in the report. Comments from the
                      exit conferences are presented in the published audit report, as appropriate.
                      Formal written comments are included in their entirety as an appendix in
                      the published audit report.

                   •	 Resolution phase - Positive change results from the resolution process in
                      which management takes action to improve operations based on the recom-
                      mendations in the published audit report. Management actions are monitored
                      until final action is taken on all recommendations. When management and
                      OIG cannot agree on the actions needed to correct a problem identified in
                      an audit report, the issue can be taken to the Chairman for resolution.

                   Each September, OIG issues an Annual Plan that summarizes the audits planned
                   for the coming Fiscal Year (FY). Unanticipated higher priority issues may arise
                   that may generate audits not listed in the Annual Plan. The audit staff continually
                   monitors specific issue areas to strengthen OIG’s coordination with the agency
                   and overall planning process. Under the OIG Issue Area Monitor (IAM) program,
                   staff designated as IAMs are assigned responsibility for keeping abreast of major
                   agency programs and activities. The broad IAM areas address nuclear reactors,
                   nuclear materials, nuclear waste, international programs, security, information
                   management, and financial management and administrative programs.




NRC OIG Semiannual Report
Investigative Program

OIG’s responsibility for detecting and preventing fraud, waste, and abuse within
NRC includes investigating possible violations of criminal statutes relating to
NRC programs and activities, investigating misconduct by NRC employees,
interfacing with the Department of Justice on OIG-related criminal matters, and
coordinating investigations and other OIG initiatives with Federal, State, and
local investigative agencies and other OIGs. Investigations may be initiated as a
result of allegations or referrals from private citizens; licensee employees; NRC
employees; Congress; other Federal, State, and local law enforcement agencies;
OIG audits; the OIG Hotline; and IG initiatives directed at areas bearing a high
potential for fraud, waste, and abuse.

Because NRC’s mission is to protect the health and safety of the public, one of
the Investigation unit’s main focus and use of resources is the investigation of
alleged misconduct by NRC staff that could adversely impact the agency’s han-
dling of matters related to health and safety. These investigations may include
allegations of:

•	 Misconduct by high ranking NRC officials and other NRC officials, such as
   managers and inspectors, whose positions directly impact public health and
   safety.

•	 Failure by NRC management to ensure that health and safety matters are
   appropriately addressed.

•	 Failure by NRC to appropriately transact nuclear regulation publicly and can-
   didly and to openly seek and consider the public’s input during the regulatory
   process.

•	 Conflict of interest by NRC employees with NRC contractors and licensees
   involving such matters as promises of future employment for favorable or
   inappropriate treatment and the acceptance of gratuities.

•	 Fraud in the NRC procurement program involving contractors violating
   Government contracting laws and rules.




                                                                                                 
                                                                    April 1, 2007 – September 30, 2007
                   OIG GENERAL COUNSEL ACTIVITIES
                   Regulatory Review

                   Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG
                   reviews existing and proposed legislation, regulations, policy, and implement-
                   ing Management Directives, and makes recommendations concerning their
                   impact on the economy and efficiency of agency programs and operations.

                   From April 1, 2007, through September 30, 2007, OIG reviewed more than 150
                   agency documents, including approximately 50 Commission papers (SECYs), Staff
                   Requirements Memoranda, and 60 Federal Register Notices, regulatory actions,
                   and statutes. The most significant commentaries are summarized below:

                   	   Draft commission paper, The Best Structure for Information Technology
                       Management, addressed the agency’s vital information technology (IT)
                       program and attempted to resolve complex and difficult program issues not
                       unique to the NRC. OIG noted that the type of authority identified for the
                       agency’s Office of Information Services (OIS) does not appear to be contrary
                       to the statutory requirements of the Chief Information Officer (CIO) Act,
                       but that the OIS organization might not be able to assume the wide range
                       of responsibilities. Further, that the proposed phased-in approach to cen-
                       tralizing the NRC’s information security program under the authority of the
                       CIO would be enhanced if more details as to how this centralization would
                       constitute improvement were provided. In addition, the OIG urged OIS to
                       more closely coordinate with other agency offices having interests and respon-
                       sibilities related to proposed changes in the NRC IT management structure.
                       Lastly, the proposed starting date to effect the changes appears to present
                       an unattainable goal, given current demands on Information Technology
                       Management resources.

                   	   Draft policy, Personally Identifiable Information Breach Notification. OIG
                       commented that while the draft policy addresses training, it does not pro-
                       pose monitoring the training for effectiveness, nor tracking it to ensure that





NRC OIG Semiannual Report
   employees and contractors who need the training actually receive it. Further,
   the policy does not provide any time frames for individuals to notify the OIG
   after a breach is discovered.

To effectively track the agency’s response to regulatory review comments, OIG
requests written replies within 90 days, with either a substantive reply or status
of issues raised by OIG.

During this reporting period, the agency responded with two substantive re-
sponses to OIG’s regulatory comments on draft papers and policies.




                                                                                                  
                                                                     April 1, 2007 – September 30, 2007
AUDITS
                   To help the agency improve its effectiveness and efficiency during this period,
                   OIG completed 8 performance audits or evaluations that resulted in numerous
                   recommendations to NRC management. OIG also analyzed 4 contract audit reports.

                   AUDIT SUMMARIES
                   Audit of NRC’s Emergency Preparedness Program

                   OIG Strategic Goals: Safety and Security

                   Emergency Preparedness (EP) is one of the seven cornerstones of the Reactor
                   Oversight Process, which is the NRC’s primary mechanism for nuclear power plant
                   oversight. The objective of the emergency preparedness cornerstone is to ensure
                                                            that licensees operating nuclear power
                                                            plants are capable of taking adequate
                                                            measures to protect public health and
                                                            safety during a radiological emergency.

                                                          NRC regulations require licensees to
                                                          have comprehensive EP programs,
                                                          which include dedicated emergency
                                                          response facilities, systems, equipment,
                                                          and staffing. Licensees must describe
                                                          their programs in facility-specific plans
                                                          that provide licensee staff with guidance
                                                          for responding to a range of emergency
                                                          situations. NRC inspectors assess the
                                                          ability of licensees to execute specific ele-
NRC regulates the emergency planning activities within ments of their emergency preparedness
the physical boundaries of nuclear power plant facility   plans such as coordination with offsite
perimeters.                                               emergency response organizations dur-
                                                          ing emergency preparedness drills and
                  exercises. Licensees conduct quarterly onsite emergency preparedness drills, as
                  well as biennial emergency preparedness exercises that simulate emergencies
                  and involve NRC as well as State and local authorities. During these exercises,
                  the Federal Emergency Management Agency (FEMA) assesses State and local
                  response organizations’ implementation of their emergency plans.



NRC OIG Semiannual Report
The objectives of this audit were to evaluate NRC’s efforts to ensure that nuclear
power plant licensees have adequate emergency preparedness plans and programs
for security-based emergencies, and NRC’s coordination with Federal, State, and
local authorities to plan and prepare for security-based emergencies.

Audit Results: NRC is making a sufficient effort to ensure that nuclear power plant
licensees have adequate emergency preparedness plans and programs. However,
NRC has not followed a consistent process for communicating its coordination
role with State and local government authorities.

In the event of radiological emergencies that occur at nuclear power plants, NRC
is responsible for supporting State and local emergency management organiza-
tions and coordinating the Federal Government’s response under the National
Response Plan. However, NRC has repeatedly demonstrated problems coordinat-
ing and communicating with State authorities during emergency preparedness
exercises. This weakness recurs because (1) NRC has not clearly defined and
communicated its coordination role to State and local authorities, and (2) has not
followed a consistent approach for working with the States during these exercises.
Inadequate coordination and communication adversely affects NRC’s emergency
operations with State agencies and could diminish the public’s confidence in NRC.
(Addresses Management Challenge #1)

Audit of NRC’s Non-Capitalized Property

OIG Strategic Goal: Corporate Management

The NRC has an established property management program to account for and
control property. Property management encompasses both capitalized and non-
capitalized property. This report focuses
on NRC’s program to account for and con- Responsibility for Property Management
trol non-capitalized property, that is, NRC
                                                Division of Contracts and
property with an initial acquisition cost of  Property Management (DCPM)

less than $50,000. As of June 2006, non-                                             Division of Administrative Services (DAS)

capitalized property was comprised of al-                                                                                             Division of
                                                                                                                                     Facilities and
most 16,000 pieces of equipment costing                                                                                              Security (DFS)


approximately $26 million.                                                Time from 3/15/1999 to Present
                                                              3/15/99                        6/30/02                             12/25/05     Present




                                                                                                                                            
                                                                                               April 1, 2007 – September 30, 2007
                   This audit’s objective was to determine whether NRC has established and
                   implemented an effective system of management controls for maintaining
                   accountability and control of non-capitalized property.

                   Audit Results: While NRC’s property management policies for non-capitalized
                   property provide a framework to control and safeguard property, the program,
                   as implemented, needs improvement to provide effective control. Specifically,
                   the Space and Property Management System data is not accurate; controls for
                   Information Technology property that may contain personally identifiable
                   information are lacking; physical security deficiencies exist; and the policy for
                   notifying OIG of incidents of missing property needs improvement.

                   OIG also recommended that the agency raise the threshold for reporting ac-
                   countable property from $500 to $1,000. This would reduce the number of items
                   tracked by 37 percent while still accounting for 84 percent of the dollar value
                   of non-capitalized property. Accounting for these inexpensive items takes time
                   away from maintaining accurate and reliable property records for more expensive
                   items. This is also in line with the threshold used by other Federal agencies for
                   recording accountable property.

                   In light of NRC’s imminent growth in personnel, and anticipated office relocations,
                   it is increasingly important that NRC maintain effective and efficient accounting
                   and control over non-capitalized property. Therefore, now is an opportune time
                   for NRC management to increase accountability for, and improve control of, the
                   property management program. An effective and efficient property management
                   program is essential to ensure that staff has the property needed to carry out their
                   duties and ensure optimum utilization of staff time, property, and fiscal resources.
                   (Addresses Management Challenge #6)

                   Audit of NRC’s License Renewal Program

                   OIG Strategic Goal: Safety

                   NRC regulations limit the term of an initial nuclear reactor operating license
                   to 40 years. However, the regulations also allow a license to be renewed for an
                   additional 20 years given that the initial term was based on economic and anti-
                   trust considerations, not technical limitations. Through technical research, NRC
                   concluded that many aging phenomena are readily managed and therefore should
                   not preclude renewal of a reactor license.

10
NRC OIG Semiannual Report
The objective of this audit was to Simplified Safety Review Process
determine the effectiveness of NRC’s
license renewal safety reviews that                                 HQ issues
                                                                      Safety
evaluate licensee applications for                  HQ conducts     Evaluation
                                                   tech reviews &     Report
extended periods of operation.       Safety review
                                       of license
                                                   on-site audit(s)
                                                                                                                ACRS
                                                                                                                             NRC issues
                                                      renewal                                                                decision on
                                                                                                               Review
                                                    applications         Regions                                              renewal
Audit Results: Overall, NRC has                            conduct on-site
                                                                                      Region
                                                                                      issues
                                                             inspection(s)
developed a comprehensive license                                                   Inspection
                                                                                     Report &
renewal process to evaluate appli-                                                   RA Letter


cations for extended periods of
operation. However, OIG identified areas where improvements would enhance
program operations. Specifically, (1) license renewal reporting efforts need im-
provement because the agency has not fully established report-writing standards
or a report quality assurance process; (2) the agency’s policy guidance for remov-
ing documents from licensee sites is
inconsistent; (3) consistent evalua- Application Preparation and Review Process
tion of operating experience would
                                             Licesnsee Applicant Activities                       NRC Review Activities
improve NRC reviews because
                                                                                          • Audit, environmental & technical reviews
program managers have not estab-                                                          • Regional inspections
lished requirements and controls to Engineering & Environmental Work LRA Prep             • OGC & ACRS reviews
                                                                                          • ASLBP reviews, if applicable
standardize the conduct and depth
of operating experience reviews;
                                              18 - 24 months               6 months                     22 - 30 months
(4) more attention is needed to
planning for post-renewal inspec-
tions because the agency has only recently focused its attention on fully develop-
ing these inspections; and (5) license renewal issues need evaluation for backfit
application. New license renewal review standards have not followed NRC’s
backfit policy because NRC does not have a mechanism or methodology to trigger
such a backfit review. (Addresses Management Challenges #1 and #3)

Audit of NRC’s Process for Placing Documents in the ADAMS Public
and Non-Public Libraries

OIG Strategic Goal: Corporate Management

NRC relies on an electronic recordkeeping system called the Agencywide Docu-
ments Access and Management System (ADAMS) to maintain its public and


                                                                                                                             11
                                                                                             April 1, 2007 – September 30, 2007
                   non-public official agency records. NRC staff decide whether official agency
                   records should be publicly or non-publicly available based on agency criteria
                   regarding document content.

                   ADAMS has four libraries. These libraries contain both public and non-public
                   records. Two libraries, the ADAMS Main Library and the Legacy Library, are
                   accessible to NRC staff but not to the public. The other two libraries, the Publicly
                   Available Records System and the Public Legacy Library, contain public records
                   only.

                   The audit objective was to determine the effectiveness and consistency by which
                   documents are profiled and processed for entry into the public or non-public
                   ADAMS libraries.

                   Audit Results: NRC profiles most documents appropriately for inclusion in pub-
                   lic versus non-public ADAMS libraries; however, the rationale for public versus
                   non-public placements is not always clearly articulated in the agency’s guidance,
                   and documents are sometimes miscategorized. As a result, NRC risks releasing
                   sensitive information to the public, which can impact public safety. The agency
                   also risks unnecessarily withholding non-sensitive information, which can un-
                   dermine public confidence in NRC as a fair and unbiased regulator.

                   Additionally, NRC needs to improve its quality control approach to ensure proper
                   profiling of ADAMS records as public or non-public. Specifically, (1) the agency
                   does not conduct regular reviews of all documents placed in ADAMS to ensure
                   proper placement in either the public or non-public ADAMS libraries; (2) document
                   originators do not always complete and submit NRC Form 665, ADAMS Docu-
                   ment Submission, an agency requirement; and (3) some offices do not routinely
                   review whether the OIS has made the appropriate availability determination or
                   follow up on items designated non-public pending review.

                   These conditions exist because the agency does not require documentation explain-
                   ing why ADAMS documents were designated as public versus non-public and
                   has not clearly communicated quality control expectations to staff. As a result,
                   NRC cannot assess if it is meeting its criteria for ADAMS document profiling
                   and risks both inappropriate release of information to the public and unneces-
                   sary withholding of information that should be publicly available. (Addresses
                   Management Challenge #5)

12
NRC OIG Semiannual Report
Memorandum Report: Audit of NRC Oversight of its Federally
Funded Research and Development Center

OIG Strategic Goal: Corporate Management

In October 1987, NRC contracted with Southwest Research Institute (SwRI) to
operate a Federally Funded Research and Development Center. SwRI established
the Center for Nuclear Waste Regulatory Analyses (the Center) to provide long-
term technical assistance and research related to NRC’s High-Level Waste (HLW)
Program authorized under the Nuclear Waste Policy Act of 1982, as amended.
The agency sponsored the Center to (1) avoid potential conflict-of-interest
situations caused by hiring contractors who worked on or were competing for
Department of Energy (DOE) contracts,
and (2) establish long-term continu-
ity in technical assistance and research.
The Nuclear Waste Policy Act of 1982,
as amended, assigns responsibility for
licensing HLW storage and disposal
facilities to NRC. DOE, the licensee,
is responsible for the construction and
operation of any HLW storage and
disposal facility after receiving a license
from the NRC. Due to the nature of
this relationship, it was and remains Aerial View of the SwRI in San Antonio, TX
critical that NRC’s technical evalua-
tions of DOE license application be free of any potential conflict-of-interest.
DOE announced that it plans to submit a license application for the HLW reposi-
tory to NRC by June 30, 2008.

The objective of the audit was to determine if NRC’s renewal justification of the
contract adequately addresses Federal Acquisition Regulation (FAR) require-
ments.

Audit Results: The NRC’s renewal justification adequately addresses the FAR
criteria. The agency also provides effective technical oversight and administration
of the agency’s contract with the Center. (Addresses Management Challenge #6)



                                                                                               13
                                                                      April 1, 2007 – September 30, 2007
                   Assessment of Security at Nuclear Regulatory Commission Buildings
                   in Rockville and Bethesda, Maryland and Las Vegas, Nevada

                   OIG Strategic Goal: Security

                   NRC buildings contain many security features and the agency has increasingly
                   hardened its protection against access to its headquarters (HQ). NRC HQ meets
                   the U.S. Department of Justice’s recommended minimum physical security stan-
                   dards for Federal buildings. However, an August 15, 2002, OIG report found that
                   NRC needed to further enhance HQ physical security and emergency response
                                                capability to improve its ability to prevent unauthor-
                                                ized individuals from accessing NRC space, protect
                                                the facility from physical attack, and mitigate the
                                                impact of an attack. Improvements were needed
                                                with regard to vehicle access control, building access
                                                control, and emergency preparedness.

                                                Audit Results: The assessment by SRA International,
                                                Inc., an OIG contractor, showed a strong security
                                                program is in effect that is compliant with applicable
                                                national security standards. According to the con-
                                                tractor, the security program at these NRC facilities
                                                is better than the security programs they have seen at
Secure entry at NRC Headquarters               many other Federal agencies. The recommendations
in Rockville, MD                               in this report are designed to further enhance security
                  at NRC and keep the security program a model for other Federal agencies. This
                  report contains sensitive security-related information and thus the report cannot
                  be publicly released. (Addresses Management Challenge #1)

                   Independent Evaluation of NRC’s Implementation of the Federal
                   Information Security Management Act for Fiscal Year 2007

                   OIG Strategic Goal: Security

                   On December 17, 2002, the President signed the E-Government Act of 2002,
                   which included the Federal Information Security Management Act (FISMA)



14
NRC OIG Semiannual Report
of 2002. FISMA outlines the information security management requirements
for agencies, which include an annual independent evaluation of an agency’s
information security program and practices to determine its effectiveness.
This evaluation must include testing the effectiveness of information security
policies, procedures, and practices for a representative subset of the agency’s
information systems. FISMA requires that the IG perform an annual evaluation
or an independent external auditor.

The objective of this audit was to perform an independent evaluation of NRC’s
implementation of FISMA for FY 2007.

Audit Results: To correct weaknesses identified by the FY 2005 and FY 2006
FISMA independent evaluations by the NRC OIG, and to address findings from
the agency’s own evaluations, the agency has refocused its information system
security program. Under the refocused program, the agency proposed performing
certification and accreditation of systems that are a high priority from a mission
perspective and others that potentially pose a higher security risk (e.g., agency
systems that communicate with systems outside the NRC network). The first
certification and accreditation schedule under the refocused program was issued
in February 2006. However:

•	 Only 2 of the 30 operational NRC information systems have a current cer-
   tification and accreditation, and only 4 of the 11 systems used or operated
   by a contractor or other organization on behalf of the agency have a current
   certification and accreditation. Subsequent to the completion of fieldwork,
   the agency completed certification and accreditation of one of the contrac-
   tor systems for which they have direct oversight, and the system was granted
   an authorization to operate. Two additional agency systems have also been
   certified and are currently under review by the agency’s designated approving
   authority for consideration of an authorization to operate.

•	 Annual contingency plan testing is still not being performed for all
   systems.




                                                                                              15
                                                                     April 1, 2007 – September 30, 2007
                   Seven new information system security program weaknesses were identified in
                   FY 2007, including:

                   •	 Security categorizations for some systems do not consistently reflect the informa-
                      tion types that reside on the systems.
                   •	 The agency did not follow the Office of Management and Budget (OMB) and
                      National Institute of Standards and Technology (NIST) guidance when
                      conducting its annual self-assessments.
                   •	 Self-assessments were not always based on approved security categorizations.
                   •	 Self-assessments contained errors and inconsistencies.
                   •	 The agency’s methodology is flawed by identifying which listed systems reside
                      on the NRC network and which do not.
                   •	 The quality of the agency’s plans of action and milestones (POA&Ms) needs im-
                      provement.
                   •	 The agency’s certification and accreditation process is inconsistent with NIST
                      guidance.

                   The evaluation also identified five repeat findings from the FY 2005 and FY 2006
                   FISMA evaluations. These issues present NRC with significant challenges to
                   improve its information security program. (Addresses Management Challenge #2)

                   Inspector General’s Assessment of the Most Serious Management and
                   Performance Challenges Facing the Nuclear Regulatory Commission

                   OIG Strategic Goal: Corporate Management

                   The Reports Consolidation Act of 2000 (the Act) requires the Inspector General
                   (IG) of each Federal agency to annually summarize what he or she considers to
                   be the most serious management and performance challenges facing the agency
                   and to assess the agency’s progress in addressing those challenges.

                   In accordance with the Act, the IG updated the most serious management and
                   performance challenges facing NRC. As part of the evaluation, the OIG staff
                   sought input from NRC’s Chairman, Commissioners, and NRC management to
                   obtain their views on what challenges the agency is facing and what efforts the
                   agency has taken to address previously identified management challenges.


16
NRC OIG Semiannual Report
Assessment Results: The IG identified eight challenges that he considers are the
most serious management and performance challenges facing NRC. The chal-
lenges identified represent critical areas or difficult tasks that warrant high-level
management attention.

In addressing this year’s challenges, we combined the prior challenge number 4,
Ability to modify regulatory processes to meet a changing environment and the prior
challenge number 9, Ability to meet the demand for licensing new reactors. The
consolidation of these challenges resulted in the following description for new
challenge 4: Ability to modify regulatory processes to meet a changing environment,
specifically the potential for a nuclear renaissance. We combined the two chal-
lenges because the anticipated workload associated with preparing to receive and
then reviewing new reactor license applications will strain the agency’s current
resources and intensify other challenges in NRC’s regulatory environment.

The chart that follows provides an overview of the eight most serious manage-
ment and performance challenges as of September 28, 2007.

         NRC’s Most Serious Management Challenges as of September 28, 2007
                        (As Identified by the Inspector General)
 Challenge 1                                                Challenge 5
 Protection of nuclear material used for civilian purposes. Implementation of information technology.

 Challenge 2                                              Challenge 6
 Appropriate handling of information.                     Administration of all aspects of financial management.

 Challenge 3                                              Challenge 7
 Development and implementation of a risk-informed        Communication with external stakeholders
 and performance-based regulatory approach.               throughout NRC regulatory activities.

 Challenge 4                                              Challenge 8
 Ability to modify regulatory processes to meet a         Managing human capital.
 changing environment, specifically the potential for a
 nuclear renaissance.

         The most serious management and performance challenges are not ranked in any order of importance.




                                                                                                        17
                                                                             April 1, 2007 – September 30, 2007
                   The eight challenges contained in this report are distinct, yet are interdependent
                   to accomplishing NRC’s mission. For example, the challenge of managing human
                   capital affects all other management and performance challenges.

                   The agency’s continued progress in addressing these challenges presented should
                   facilitate successful achievement of the agency’s mission and goals.

                   AUDITS IN PROGRESS
                   Audit of the Nuclear Power Plant Power Uprate Program

                   OIG Strategic Goal: Safety

                   NRC regulates the maximum power level at which a commercial nuclear power
                   plant may operate. The process of increasing the maximum power level at which
                   a plant may operate is called a power uprate. There are three categories of power
                   uprates, including (1) measurement uncertainty recapture power uprates, which
                   are less than 2 percent and are achieved by implementing enhanced techniques
                   for calculating reactor power; (2) stretch power uprates, which are typically up to
                   7 percent and are within the design capacity of the plant, and (3) extended power
                   uprates which have been approved for increases as high as 20 percent. Extended
                   power uprates often require significant modifications to plant equipment, such
                   as the high-pressure turbines, condensate pumps and motors, main generators,
                   and transformers.

                   Licensees seek permission to perform a power uprate by submitting a license
                   application amendment to NRC. Since 1977, NRC has approved over 113 power
                   uprates, resulting in a combined increase of over 4,900 megawatts electric to
                   the Nation’s electric generating capacity. NRC anticipates as many as 27 power
                   uprate applications during the next 5 years. Some of these future power uprate
                   requests may be for plants that have been approved or may seek approval for a
                   license renewal to operate for 20 additional years beyond their original 40-year
                   license term.

                   The objective of this audit is to examine the support and justification for approv-
                   ing power uprate amendment applications. OIG will also review scheduling and
                   resource management. (Addresses Management Challenges #3 and #4)


18
NRC OIG Semiannual Report
Audit of NRC’s Enforcement Program

OIG Strategic Goal: Safety

The NRC’s enforcement jurisdiction is drawn from the Atomic Energy Act of
1954, as amended, and the Energy Reorganization Act of 1974, as amended. In
recognition that violations occur in a variety of activities and have varying levels
of significance, the Commission set out to create an enforcement framework
with graduated sanctions to reflect this diversity. The Commission’s first public
statement of policy on enforcement (the first Enforcement Policy) was published
in 1980. Although the policy statement has changed several times, two goals of
the enforcement program remain unchanged: to emphasize the importance of
compliance with regulatory requirements; and, to encourage prompt identification,
and prompt, comprehensive correction of violations. The enforcement program
is also intended to meet the agency’s performance goals.

Violations are identified through inspections and investigations. All violations
are subject to civil enforcement action and may also be subject to criminal pros-
ecution. After an apparent violation is identified, it is assessed in accordance
with the Commission’s Enforcement Policy. Because the policy statement is not
a regulation, the Commission may deviate from the Enforcement Policy as ap-
propriate under the circumstances of a particular case.

The objectives of this audit are to determine how NRC assesses (1) the signifi-
cance of violations and (2) the level of enforcement action to be taken. (Addresses
Management Challenges #1 and #3)

Audit of NRC’s Oversight of Fitness for Duty for Security Guards at
Nuclear Power Plants

OIG Strategic Goal: Security

NRC has a fitness-for-duty requirement to provide assurance that security guards
at nuclear power plants are trustworthy and reliable. The fitness-for-duty pro-
grams include:

•	 Testing security guards for illegal drug use;



                                                                                               19
                                                                      April 1, 2007 – September 30, 2007
                   •	 Limiting the number of work hours for some guards to no more than 16 hours
                      in a 24-hour period, 26 hours in a 48-hour period and 72 hours in a week,
                      excluding shift turnover time; and
                   •	 Establishing minimum individual breaks for some guards of at least 10 hours
                      between shifts, a 24-hour break each week and a 48-hour break every two
                      weeks.

                   NRC is currently proposing to codify the fitness-for-duty programs through the
                   rulemaking process. The new rule represents the resolution of NRC’s activities
                   in response to petitions for rulemaking regarding work hour limits and certain
                   inspections of fitness-for-duty programs. The rule would also, in part, replace
                   and expand on an Order the NRC issued on April 29, 2003, setting work hour
                   limits for security personnel, as well as codify a Commission policy statement
                   on fatigue issued in 1982.

                   The objective of this audit is to assess the effectiveness of NRC’s oversight of the
                   fitness for duty programs for security guards at nuclear power plants. (Addresses
                   Management Challenges #1 and #3)

                   Audit of NRC’s Continuity of Operations Plan

                   OIG Strategic Goals: Safety and Security

                   To ensure that essential NRC services are available during an emergency (such
                   as terrorist attacks, severe weather, or building emergencies), Federal agencies
                   are required to develop continuity of operations (COOP) plans. Federal Emer-
                   gency Management Agency (FEMA) guidance, Federal Preparedness Circular
                   65 entitled “Federal Executive Branch Continuity of Operations,” identifies
                   elements of a viable COOP capability, including the requirement that agencies
                   denote their essential functions.

                   The objectives of this audit are to evaluate the extent that NRC has identified and
                   maintains essential functions during an emergency and to determine if NRC’s
                   COOP plan follows FEMA guidelines. (Addresses Management Challenge #1)




20
NRC OIG Semiannual Report
Audit of NRC’s AID-Funded Activities

OIG Strategic Goal: Corporate Management

NRC receives Freedom Support Act
(FSA) funds from the U.S. Agency for
International Development (AID) to
support provisions of nuclear regulatory
safety and security assistance to the regu-
latory authorities of Armenia, Georgia,
Kazakhstan, Russia, and Ukraine. These
funds support activities that include
strengthening regulatory oversight of:

•	 The startup, operation, shutdown, and decommissioning of Soviet-designed
   nuclear power plants,

•	 The safe and secure use of radioactive materials, and

•	 Accounting for and protection of nuclear materials.

NRC has received approximately $51 million in FSA funds from FY 1992 through
FY 2006. The Office of International Programs has responsibility for NRC’s use
of FSA funds. This responsibility includes internal NRC coordination, coordina-
tion with other U.S. Governmental agencies involved with assistance activities,
and coordination with other international donors.

The objectives of this audit are to determine if the management controls over the
use of AID funds are adequate; and NRC’s corrective actions resulting from OIG’s
recommendations in Audit Report OIG-02-A-04, dated December 3, 2001, are
being adequately implemented. (Addresses Management Challenge #6)




                                                                                             21
                                                                    April 1, 2007 – September 30, 2007
                   Audit of NRC’s Accounting and Control Over Time and Labor Reporting

                   OIG Strategic Goal: Corporate Management

                   Salaries and benefits for NRC’s approximately 3,000 employees accounted for
                   about 60 percent (or $399 million) of NRC’s FY 2005 obligations. Approximately
                   90 percent ($360 million) of the salaries and benefits are recovered through bill-
                   ings to NRC licensees.

                   NRC’s time and labor system is intended to collect data to adequately support
                   employees’ pay and show the number of hours employees are working and are in
                   leave status. The system provides data in support of entitlements to overtime pay,
                   premium pay, and compensatory time earned and used. An accurate and reliable
                   system of collecting time and labor data is necessary to provide a basis for:

                   •	 allocating employees’ time to the agency’s program and performance
                      objectives;

                   •	 assessing NRC fees, and

                   •	 financial reporting.

                   The objectives of this audit are to determine whether (1) NRC has established
                   and implemented internal controls over time and labor reporting to provide rea-
                   sonable assurance that hours worked in pay status and hours absent are properly
                   reported, and (2) the time and labor system can be easier and more efficient to
                   use. (Addresses Management Challenge #6)

                   Audit of NRC’s FY 2007 Financial Statements

                   OIG Strategic Goal: Corporate Management

                   Under the Chief Financial Officers Act and the Government Management and
                   Reform Act, the OIG is required to audit the financial statements of the NRC in
                   accordance with applicable auditing standards. The audit will express an opinion
                   on the agency’s financial statements, evaluate internal controls, review compli-
                   ance with applicable laws and regulations, review the performance measures
                   for compliance with the OMB guidance, and review the NRC systems’ controls


22
NRC OIG Semiannual Report
that are significant to the financial statements. In addition, OIG will measure
the agency’s improvements by assessing corrective action taken on prior audit
findings. (Addresses Management Challenge #6)

Audit of NRC’s Alternative Dispute Resolution Process

OIG Strategic Goal: Safety

Alternative Dispute Resolution (ADR) is a term that refers to a number of pro-
cesses, such as mediation and facilitated dialogues, which can be used to assist
parties in resolving disputes. In 1992, the NRC issued a general policy that sup-
ports and encourages the use of ADR in agency activities. In 2004, the Commis-
sion approved the staff ’s plan to implement a pilot to evaluate the use of ADR in
the allegation and enforcement programs. The pilot was developed to evaluate
whether the use of ADR could provide greater flexibility in the processes (e.g.,
mediation, facilitation), more timely and economical resolution of issues, more
effective outcomes, and improved relationships.

In 2006, the Commission approved the implementation of the ADR program using
the pilot program guidance until a future revision to the Enforcement Policy can
be accomplished. As part of this revision, NRC’s Office of Enforcement plans to
propose the expanded use of ADR to all traditional enforcement actions.

The objective of this audit is to assess whether the ADR program is complete and
ready for full implementation in the enforcement program. (Addresses Manage-
ment Challenges #1 and #3)




                                                                                              23
                                                                     April 1, 2007 – September 30, 2007
INVESTIGATIONS
                   During this reporting period, OIG received 98 allegations, initiated 23 investigations
                   and closed 21 cases. In addition, the OIG made 22 referrals to NRC management
                   and 11 to the Department of Justice.

                   INVESTIGATIVE CASE SUMMARIES
                   Adequacy of NRC Handling of South Texas Project Nuclear Power Plant
                   Security Concerns

                   Strategic Goal: Security

                   OIG conducted an investigation into an allegation by the Union of Concerned
                   Scientists (UCS) that the NRC had failed to adequately review security-related
                   concerns and other issues raised by The Wackenhut Corporation guards at the
                                              South Texas Project nuclear power plant (STP). UCS
                                              also indicated that the guards received a non-response
                                              from the NRC regarding the NRC’s review of these
                                              issues.

                                               The OIG review found that the NRC Region IV staff
                                               handled the guards’ concerns consistent with the
                                               procedures outlined in NRC Management Directive
                                               8.8, Management of Allegations. OIG learned that the
                                               majority of these concerns were referred to the STP
                                               licensee to investigate. The guards were informed
                                               of these referrals and did not object to the licensee
                                               investigating these concerns. The staff evaluated the
South Texas Project nuclear power plant        licensee’s responses and their corrective actions regard-
in Bay City, Texas.                            ing these concerns. Concerns related to discrimination
                                               and potential licensee wrongdoing were referred to the
                    NRC’s Office of Investigation, Region IV, which conducted three investigations
                    into these matters.

                   OIG also determined that in the aftermath of September 11, 2001, the NRC placed
                   restrictions on the public dissemination of sensitive security-related information in
                   an effort to preclude the release of information useful to potential adversaries. These
                   controls also applied to information provided to allegers raising security concerns


24
NRC OIG Semiannual Report
to the NRC. The restrictions made it difficult for the NRC staff to assure allegers
that their concerns were addressed which ultimately resulted in dissatisfaction
with the NRC’s response. OIG learned that the Commission had also become
aware of this communication challenge and in SECY-07-0032, Recommended
Staff Actions Regarding Correspondence with Allegers Involving Security-Related
Concerns, directed the NRC staff to revise these rules.

OIG also noted that an additional review was conducted by the Region IV staff of
these same concerns following the receipt of letters from UCS and Congressman
Edward Markey which resulted in the same findings. (Addresses Management
Challenge #1)

NRC Not Requiring Licensee Compliance with
Congressional Mandate

Strategic Goal: Safety

OIG received an allegation in April 2007, that Entergy Nuclear Operations, Inc.
and NRC conspired to avoid complying with a Congressional mandate in the
Energy Policy Act (Act) of 2005 to provide backup power to the emergency no-
tification system (ENS) at Indian Point Nuclear Power Plant (IPNPP), the only
nuclear plant affected by this mandate.

OIG’s investigation did not corroborate this allegation. In contrast, OIG’s inter-
view of NRC staff and review of documents revealed that on January 31, 2006,
NRC issued an order to IPNPP to comply with the Act that required IPNPP to
install backup power to the ENS and have it operable by January 30, 2007. On
January 11, 2007, NRC approved the licensee’s request to extend the date to be
in compliance to April 15, 2007. However, on April 13, 2007, IPNPP requested
a second extension. On April 13, 2007, the NRC denied the second extension
request from the licensee because NRC believed that the factors which prevented
the licensee from meeting the April 15th deadline were within the licensee’s control
and reflected insufficient senior management attention at IPNPP. On April 17,
2007, an NRC enforcement panel met and agreed to issue the licensee a Severity
Level (SL) III Notice of Violation (NOV) and fine the licensee $130,000, double
the base amount for an SL III. NRC staff doubled the base fine because it wanted
to emphasize the importance of complying with a Congressional mandate and


                                                                                               25
                                                                      April 1, 2007 – September 30, 2007
                   an NRC Order. On April 23, 2007, NRC issued the NOV and civil fine to the
                   licensee. NRC staff did not impose a daily fine against the licensee because NRC
                   believed there was no significant safety issue due to the fact that the existing
                   ENS was tested in March 2007 and found to be capable of alerting the public of
                   an event at the plant while the licensee worked on the operability of a new ENS.
                   (Addresses Management Challenge #4)

                   Failure to Follow NRC Enforcement Procedures

                   OIG Strategic Goal: Safety

                   OIG completed a review into concerns related to a 2004 inspection of the
                   Oconee Nuclear Stations (Oconee) Units 1, 2, and 3. These concerns were raised
                   by a former NRC Region II Oconee senior resident inspector who, during the
                   inspection, identified degraded paint coatings inside reactor containment that he
                   believed could clog the emergency sump pump strainers and cause the pumps to
                   fail. According to the senior resident inspector, Region II did not follow proper
                   procedures for potential enforcement action regarding the coatings issue, did
                   not document key agency decisions, and did not resolve the issue in a timely
                   manner. Moreover, the agency’s decision in addressing the coatings issue was
                   inconsistent with precedent.

                   By way of background, the purpose of layered paint used as a containment coating
                   is to protect the underlying structure or component from detrimental effects of
                   the environment to which it is exposed during normal and emergency opera-
                   tion. The degradation of coatings at Oconee resulted in visible flaking and peel-
                   ing of the paint on inner containment walls of the nuclear power reactor vessel.
                   Degraded coatings and their effect on containment sump pumps had previously
                   been addressed with the nuclear industry by the NRC.

                   OIG found that after the 2004 NRC inspection of the Oconee reactor units, the NRC
                   issued an inspection report which identified the coatings issue as an unresolved
                   inspection item pending further assessment. The NRC staff later initiated a two
                   step process identified in the NRC Significance Determination Process for the
                   evaluation of the degraded coatings. This evaluation concluded that the degraded
                   coatings could detach from the containment reactor liner and transport to the
                   emergency sump, thereby resulting in a potential loss of emergency core cooling.


26
NRC OIG Semiannual Report
Based on this conclusion, NRC should have convened a Significance Determina-
tion and Enforcement Review Panel (SERP) to determine, among other things, the
safety significance of the unresolved inspection item. However, OIG assertained
that a senior NRC regional manager intervened and prevented a SERP review of
the potential inspection finding for the degraded Oconee coatings which could
have resulted in a violation and enforcement action against Oconee. Also, OIG
noted that the region did not document the rationale for not proceeding with
the SERP review. (Addresses Management Challenge #3)

Improper Release of Personally Identifiable Information

OIG Strategic Goal: Corporate Management

OIG completed an investigation into an improper release of Personally
Identifiable Information (PII) by the NRC. PII is information that can be used to
distinguish an individual’s identity, such as their name in combination with their
social security number, date and place of birth, medical and employment history,
and criminal record. NRC staff is required to protect PII
from unauthorized access.

NRC regulations require NRC licensee and contractor
employees to undergo a criminal history check before they
are permitted unescorted access to a nuclear power facil-
ity or access to certain sensitive information. Informa-
tion pertaining to the criminal history checks is typically
communicated via a secure electronic transmission pro-
cess. However, such information may also be exchanged
via facsimile.

OIG learned that since 2003, Government agencies have been required to report
any improper release of PII to the U.S. Computer Emergency Readiness Team (US-
CERT). Also, in response to unauthorized release of PII, Government agencies
should consider whether to send notification letters to the affected individuals
whose identity was released as well as non-disclosure letters to individuals who
inadvertently received the PII information.




                                                                                              27
                                                                     April 1, 2007 – September 30, 2007
                   OIG found that on August 28, 2006, an NRC staff member inadvertently sent 13
                   criminal history reports via facsimile to a private citizen in Richmond, Virginia.
                   The citizen discovered the documents on October 16, 2006, after returning home
                   from a vacation. The criminal history reports, which were intended for 2 separate
                   NRC nuclear power plant licensees, contained PII pertaining to 13 individuals
                   working at these facilities. OIG found that this error occurred after an NRC
                   staff member, who had received 1 week of training, was given responsibility for
                   processing requests for criminal history checks from licensees. The individual
                   was overwhelmed and did not receive sufficient supervisory oversight.

                   OIG also confirmed that over the past 3 years, NRC has occasionally sent criminal
                   history reports to unintended recipients, but during the months of August and
                   September 2006 these mistakes increased significantly. Other than the release
                   that occurred on August 28, 2006, NRC did not send non-disclosure or notifica-
                   tion letters to individuals affected by the release of their PII even though certain
                   NRC staff members were aware that criminal history reports had been released
                   to people who had no need to know the information. Additionally, OIG found
                   that with the exception of the August 2006 incident, NRC did not contact US-
                   CERT to report improper releases of PII contained in criminal history reports.
                   (Addresses Management Challenge #2)

                   Improper Issuance of Reactor Operator Licenses by NRC Staff

                   OIG Strategic Goal: Safety

                   OIG completed an investigation into an allegation that NRC issued five
                   reactor operator licenses to San Onofre Nuclear Generating Station (SONGS)
                   employees who were tested on a simulator that did not meet the standards set forth
                   in Title 10 Code of Federal Regulations (CFR) 55.46, “Simulator Facilities.”

                   One of the requirements of 10 CFR 55.46 is that each reactor operator license
                   applicant perform five control manipulations on either a control room simulator
                   or at an actual plant reactor control room. If a simulator is used, the simula-
                   tor must adequately replicate the most recent reactor fuel core reload. The 5
                   SONGS reactor operator applicants performed 22 of their required 25 control
                   manipulations (2 of the 5 applicants performed all 5 control manipulations) on


28
NRC OIG Semiannual Report
the SONGS simulator. It was alleged that the licensee had not demonstrated
that the simulator adequately replicated the most recent core reload and had not
met the degree of realism (fidelity) required under 10 CFR 55.46(c). Therefore,
the alleger maintained that the 22 simulator control manipulations could not be
credited towards the control room manipulations required by the NRC reactor
operator licensing process.

OIG determined that an NRC manager who issued the reactor operator licenses
to the SONGS applicants as well as two NRC staff inspectors who conducted a
follow-up inspection of the SONGS simulator believed the NRC regulations do
not require the simulator to exactly replicate all plant operation responses. OIG
reviewed relevant NRC regulations and guidelines, including the 1998 version 3.5
of the American National Standard for Nuclear Power Plant Simulators for Use in
Operator Training and Examination and NRC Regulatory Guide 1.149, “Nuclear
Power Plant Simulation Facilities for Use in Operator Training and License Ex-
aminations.” OIG noted that these regulations and guidelines required licensee
control room simulators to predict certain key parameters but that the simulator
is not required to predict every conceivable parameter of plant operations. OIG
did not identify any failure to comply with NRC licensing requirements during
the NRC staffs review of the SONGS simulator. Also, OIG found no indication
of NRC staff misconduct regarding the granting of reactor operator licenses to
SONGS reactor operators. (Addresses Management Challenge #1)




                                                                                             29
                                                                    April 1, 2007 – September 30, 2007
                             STATISTICAL SUMMARY OF
                               OIG ACCOMPLISHMENTS
                   INVESTIGATIVE STATISTICS
                   Source of Allegations — April 1, 2007, through September 30, 2007

                                            NRC Employee                                   23
                                        NRC Management                     7
                              Other Government Agency                 3
                                                 Intervenor                6
                                            General Public                                          31
                                                      Media       1
                                 OIG Investigation/Audit                             11
                                       Regulated Industry             2
                                               Anonymous                              12
                                           NRC Contractor             2
                                            Congressional         1


                              Allegations resulting from the Hotline: 22                        Total: 99



                   Disposition of Allegations — April 1, 2007, through September 30, 2007

                                                       Total                                         99
                                  Closed Administratively                            37
                            Referred for OIG Investigation                     23
               Referred to NRC Management and Staff                             27
                             Referred to External Agency         2
                                Pending Review or Action         2
                              Correlated to Existing Case             8


30
NRC OIG Semiannual Report
STATUS OF INVESTIGATIONS
DOJ Referrals . .................................................................................................. 12
DOJ Acceptance ................................................................................................. 1
DOJ Pending........................................................................................................ 3
DOJ Declinations ............................................................................................... 8
Recoveries . ..............................................................................................$32,2801
Cost Savings to Government ..............................................................$106,2002
NRC Administrative Actions:
	 Terminations and Resignations ................................................................. 2
	 Letter of Reprimand .................................................................................... 1
	 Counseling . .................................................................................................. 4
	 Alternative Dispute Resolution . ................................................................ 1
	 Other Administrative Actions ................................................................... 2

SUMMARY OF INVESTIGATIONS
Classification of 		           Opened 	 Closed 	 Cases In
Investigations	     Carryover	 Cases	   Cases	 Progress
Conflict of Interest	                                          2	               2	               1	             3
Internal Fraud	                                                2	               0	               1	             1
External Fraud	                                                7	               2	               3	             6
	False Statements	                                             1	               2	               1	             2
 	Misuse of Government Property	                               0	               5	               1	             4
  	Employee Misconduct	                                        6	               2	               4	             4
   	Management Misconduct	                                     0	               1	               0	             1
    Technical Allegations — Other	                             6	               8	               6	             8
    Proactive Initiatives	                                     2	               0	               0	             2
    Project	                                                  11	               1	               2	            10
    Event Inquiries	                                           3	               0	               2	             1
    			 Total Investigations	                                 40	              23	              21	            42

1
 Recoveries resulting from investigations into the misuse of NRC computers, misuse of NRC IT equipment,
and improper license fees resulting from false claims of small business.
2
 Cost savings to the Government resulting from an investigation into an improper worker’s compensation
case.


                                                                                                                                  31
                                                                                                         April 1, 2007 – September 30, 2007
                   AUDIT LISTINGS
                   Internal Program Audit and Special Evaluation Reports

                   Date	         Title	                                          Audit Number

                   06/25/2007	   Audit of NRC’s Emergency Preparedness	          OIG-07-A-13
                   	             Program

                   07/12/2007	   Audit of NRC’s Non-Capitalized Property	        OIG-07-A-14

                   09/06/2007	   Audit of NRC’s License Renewal Program	         OIG-07-A-15

                   09/06/2007	   Audit of NRC’s Process for Placing
                   	             Documents in the ADAMS Public and
                   	             Non-Public Libraries	                           OIG-07-A-16

                   09/14/2007	   Memorandum Report: Audit of NRC
                   	             Oversight of its Federally Funded Research
                   	             and Development Center	                         OIG-07-A-17

                   09/26/2007	   Assessment of Security at Nuclear Regulatory
                   	             Commission Buildings in Rockville and
                   	             Bethesda, Maryland and Las Vegas, Nevada -
                   	             September 24, 2007 - OFFICIAL USE ONLY -
                   	             NOT FOR PUBLIC RELEASE
                   	             (For information call OIG at 301-415-5915)	     OIG-07-A-18

                   09/28/2007	   Independent Evaluation of NRC’s
                   	             Implementation of the Federal Information
                   	             Security Management Act for Fiscal Year 2007	   OIG-07-A-19

                   09/28/2007	   Inspector General’s Assessment of the
                   	             Most Serious Management and
                   	             Performance Challenges Facing the
                   	             Nuclear Regulatory Commission 	                 OIG-07-A-20



32
NRC OIG Semiannual Report
CONTRACT AUDIT REPORTS
OIG	          Contractor/	                    Questioned	   Unsupported
Issue Date	   Contract Number	                  Costs	         Costs

05/24/07	     Hummer Whole Health 		
	             Management
	             NRC-38-00-290	       $62,654
	             NRC-38-05-366	        $ 5,364		

06/20/07	     Beckman and Associates	 0	 0
	             NRC-03-03-037			

07/09/07	     Southwest Research Institute	 0	 0
	             NRC-02-01-005
	             NRC-02-02-012
	             NRC-02-03-002
	             NRC-02-03-004
	             NRC-02-03-005
	             NRC-02-03-007
	             NRC-02-04-001
	             NRC-02-04-014				


07/09/07	     Southwest Research Institute	       0	             0
	             NRC-02-02-012
	             NRC-02-03-002
	             NRC-02-03-005
	             NRC-02-03-007
	             NRC-02-04-001
	             NRC-02-04-014




                                                                                      33
                                                             April 1, 2007 – September 30, 2007
AUDIT RESOLUTION ACTIVITIES
TABLE I
OIG Reports Containing Questioned Costs3
April 1, 2007, through September 30, 2007
	                                            	                                               Questioned	             Unsupported
	                                        Number of	                                             Costs	                  Costs
Reports	                                  Reports	                                            (Dollars)	              (Dollars)

A.	    For which no management decision
       had been made by the commencement
       of the reporting period	                                           1	                   $193,5854	                    0

B.	    Which were issued during the
       reporting period	                                                  1	                    $68,018	                     0

	      Subtotal (A + B)	                                                  2	                   $261,603	                     0

C.	    For which a management decision was
       made during the reporting period:

	      (i) 	 dollar value of disallowed costs	                            1	                   $193,5854	                    0

	      (ii)	 dollar value of costs not disallowed	                        0	                         0	                      0

D.	    For which no management decision
       had been made by the end of the
       reporting period	                                                  1	                    $68,018	                     0

E.	    For which no management decision was
       made within 6 months of issuance	                                  0	                         0	                      0

3
 Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure of funds; a finding that, at the time of the
audit, such costs are not supported by adequate documentation; or a finding that the expenditure of funds for the intended purpose
is unnecessary or unreasonable.
Questioned NRC management agreed with the questioned cost, however, the contractor disagreed and took the case to the Civilian
4

Board of Contract Appeals. Therefore, the disallowed cost is pending the outcome of the case.



34
NRC OIG Semiannual Report
TABLE II
OIG Reports Issued with Recommendations That Funds Be Put to Better Use5

	                                                                    Number of	            Dollar Value
Reports	                                                              Reports	              of Funds

A.	    For which no management decision	 0	 0
       had been made by the commencement
       of the reporting period			

B.	    Which were issued during the 	 0	                                                           0
       reporting period		

C.	    For which a management decision was	
       made during the reporting period:		

	       (i) 	 dollar value of recommendations	                             0	                      0
       	      that were agreed to by management

	       (ii) 	dollar value of recommendations 	                            0	                      0
        	 that were not agreed to by management

D.	    For which no management decision had	                               0	                      0
       been made by the end of the reporting
       period

E.	    For which no management decision was	 0	 0
       made within 6 months of issuance				



5
 A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could be
used more efficiently if NRC management took actions to implement and complete the recommendation,
including: reductions in outlays; deobligation of funds from programs or operations; withdrawal of
interest subsidy costs on loans or loan guarantees, insurance, or bonds; costs not incurred by implementing
recommended improvements related to the operations of NRC, a contractor, or a grantee; avoidance of
unnecessary expenditures noted in preaward reviews of contract or grant agreements; or any other savings which are
specifically identified.



                                                                                                                     35
                                                                                       April 1, 2007 – September 30, 2007
         TABLE III
         Significant Recommendations Described in Previous Semiannual Reports on
         Which Corrective Action Has Not Been Completed

         Date	        Report Title	                                                    Number

         05/26/03	    Audit of NRC’s Regulatory Oversight of Special	                OIG-03-A-15
         	            Nuclear Materials

         	            Recommendation 1: Conduct periodic inspections to verify
         	            that material licensees comply with material control and
         	            accountability (MC&A) requirements, including, but not
         	            limited to, visual inspections of licensees’ special nuclear
         	            material (SNM) inventories and validation of reported
         	            information.

         09/16/04	    Audit of NRC’s Incident Response Program	                      OIG-04-A-20

         	            Recommendation 1: Establish a defined agencywide
         	            incident response plan that includes standards for
         	            performance, delineation of the conduct of exercises and
         	            drills, and a well-defined objective mechanism for
         	            evaluating incident response during exercises.

         09/30/05	    Evaluation of NRC’s Certification and Accreditation Efforts	 OIG-05-A-20

         	            Recommendation 1: Develop and implement procedures
         	            for monitoring timely initiation of certification and
         	            accreditation efforts.

         	            Recommendation 2: Develop and implement a mechanism
         	            for holding responsible managers and their staff accountable
         	            for completing certification and accreditation efforts in a
         	            timely manner.




36
NRC OIG Semiannual Report
02/23/06	   Audit of the Development of the National Source 	                OIG-06-A-10
	           Tracking System
	           Recommendation 1: Before the NSTS rulemaking is
	           finalized, conduct a comprehensive regulatory analysis for
	           NSTS that explores other viable options, such as those in the
	           Code of Conduct. The regulatory analysis should include an
	           assessment of expanding materials tracked in NSTS to contain
	           categories 3, 4, and 5; aggregation of sources; and bulk material.
	           Recommendation 2: Validate the existing data in the Interim
	           Database to ensure that reliable information is used in the
	           NSTS regulatory analysis.
03/16/06	   Audit of the NRC’s Byproduct Materials License 	                 OIG-06-A-11
	           Application and Review Process
	           Recommendation 1: Conduct a complete vulnerability
	           assessment of the materials program, including the license
	           application and review process.
	           Recommendation 2: Modify the license application and
	           review process to mitigate the risks identified in the
	           vulnerability assessment.
09/29/06	   Evaluation of NRC’s Use of Probabilistic Risk 	                  OIG-06-A-24
	           Assessment (PRA) in Regulating the Commercial
	           Nuclear Power Industry
	           Recommendation 1: Develop and implement a formal,
	           written process for maintaining PRA models that are
	           sufficiently representative of the as-built, as-operated plant
	           to support model uses.
	           Recommendation 2: Develop and implement a fully
	           documented process to conduct and maintain configuration
	           control of PRA software (i.e., SAPHIRE, GEM).
	           Recommendation 3: Conduct a full verification and
	           validation of SAPHIRE version 7.2 and GEM.


                                                                                              37
                                                                     April 1, 2007 – September 30, 2007
         TABLE IV
         Summary of Audit Reports Without Management Decision For More Than Six Months

         Date	        Report Title	                                                  Number

         09/08/06	    Audit of NRC’s Process for Releasing Commission 	            OIG-06-A-22
         	            Decision Documents
         	            Summary: OIG made two recommendations to the
         	            Executive Director for Operations (EDO) to (1) develop a
         	            program for NRC compliance with FOIA’s automatic
         	            disclosure requirement and (2) conduct a documented
         	            FOIA 552(a)(1) and (a)(2) review of previously unpublished
         	            SECY Papers and SRMs.
         	            Recommendation 2 remains unresolved.
         	            Reason Unresolved: OIG and the agency remain in
         	            discussions on implementing recommendation 2.
         	            According to the agency, short of “compelling evidence” to
         	            the contrary, the Commission considers it “unreasonable and
         	            unnecessary to spend extensive resources reviewing hundreds
         	            or thousands” of previously unpublished Commission
         	            decision documents to confirm NRC’s compliance with FOIA.
         	            OIG reiterates that without internal controls in place, such
         	            as a defined review process, NRC has no basis upon which
         	            to assert its full compliance with the automatic disclosure
         	            provisions of the FOIA. OIG maintains that conducting a
         	            statistical sample would provide empirical evidence of the
         	            extent of NRC’s compliance with the provisions of
         	            5 U.S.C. 552 (a)(1) and (a)(2). As a result, this recom-
         	            mendation remains unresolved.




38
NRC OIG Semiannual Report
         ABBREVIATIONS AND ACRONYMS
ADR	      Alternative Dispute Resolution

AID	      U.S. Agency for International Development

ADAMS	    Agencywide Documents Access and Management System

CFR	      Code of Federal Regulations

CIO	      Chief Information Officer

COOP	     continuity of operations

DOE	      U.S. Department of Energy

EDO	      Executive Director for Operations (NRC)

ENS	      emergency notification system

EP	       Emergency Preparedness

FAR	      Federal Acquisition Regulation

FEMA	     Federal Emergency Management Agency

FISMA	    Federal Information Security Management Act

FSA	      Freedom Support Act

FY	       Fiscal Year

HLW	      High-Level Waste

HQ	       NRC Headquarters

IAM	      Issue Area Monitor

IG	       Inspector General

IT	       information technology



                                                                                 39
                                                        April 1, 2007 – September 30, 2007
                   IPNPP	     Indian Point Nuclear Power Plant

                   NIST	      National Institute of Standards and Technology

                   NOV	       Notice of Violation

                   NRC 	      U.S. Nuclear Regulatory Commission

                   NSTS	      National Source Tracking System

                   OIG 	      Office of the Inspector General (NRC)

                   OIS	       Office of Information Services (NRC)

                   OMB	       Office of Management and Budget

                   PII	       Personally Identifiable Information

                   PRA	       Probabilistic Risk Assessment

                   SERP	      Significant Determination and Enforcement Review Panel

                   SL	        Severity Level

                   SONGS	     San Onofre Nuclear Generating Station

                   STP	       South Texas Project

                   SwRI	      Southwest Research Institute

                   UCS	       Union of Concerned Scientists

                   US-CERT	   U.S. Computer Emergency Readiness Team




40
NRC OIG Semiannual Report
                              REPORTING REQUIREMENTS
The Inspector General Act of 1978, as amended (1988), specifies reporting require-
ments for semiannual reports. This index cross-references those requirements
to the applicable pages where they are fulfilled in this report.


CITATION	               REPORTING REQUIREMENTS	                                                PAGE

Section 4(a)(2)	        Review of Legislation and Regulations . ...............................6-7

Section 5(a)(1)	        Significant Problems, Abuses, and Deficiencies . .......8-18, 24-29

Section 5(a)(2) 	 Recommendations for Corrective Action ..........................8-18

Section 5(a)(3) 	 Prior Significant Recommendations
	                 Not Yet Completed . ............................................................36-37

Section 5(a)(4) 	 Matters Referred to Prosecutive Authorities ........................ 31

Section 5(a)(5) 	 Information or Assistance Refused . ................................. None

Section 5(a)(6) 	 Listing of Audit Reports .......................................................... 32

Section 5(a)(7) 	 Summary of Significant Reports .............................8-18, 24-29

Section 5(a)(8) 	 Audit Reports — Questioned Costs ..................................... 34

Section 5(a)(9) 	 Audit Reports — Funds Put to Better Use ............................ 35

Section 5(a)(10) 	 Audit Reports Issued Before Commencement
	                  of the Reporting Period for Which No
	                  Management Decision Has Been Made ................................ 38

Section 5(a)(11) 	 Significant Revised Management Decisions .................... None

Section 5(a)(12) 	 Significant Management Decisions With
	                  Which OIG Disagreed ........................................................ None




                                                                                                                41
                                                                                       April 1, 2007 – September 30, 2007
42
NRC OIG Semiannual Report
